BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1210
SENECA COUNTY, NEW YORK,

Petitioner,
V.

CAYUGA INDIAN NATION OF NEW YORK,

Respondent.
As required by Supreme Court Rule 33.l(h), I certify
that the Reply Brief contains 2,992 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on May 18, 2021.

Amy Triplett Mor~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

NotaryPublic

JOHN D. CALLAGHER
Nolary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

